No. 20A96

 

 

IN THE
Suprene Court of the Hnited States

 

DANVILLE CHRISTIAN ACADEMY, INC., and COMMONWEALTH
OF KENTUCKY, ex rel. ATTORNEY GENERAL DANIEL CAMERON

Applicants,

ANDREW BESHEAR, in his official capacity as Governor of Kentucky

Respondent.

 

To the Honorable Brett Kavanaugh, Associate Justice of the
Supreme Court of the United States and Circuit Justice for the
Sixth Circuit

CERTIFICATE OF COMPLIANCE

I, Ryan J. Tucker, a member of the Bar of this Court and counsel for the amici
curiae on the accompanying Motion by Multiple Private Kentucky Religious Schools
for Leave to File as Amici Curiae and Brief as Amici Curiae in Support of Applicants’
Emergency Application to Vacate Stay of Preliminary Injunction certify under Rule
33.1(h) of the Rules of this Court that the motion contains 885 words and the brief

contains 4,668 words, excluding the parts that are exempted by Rule 33.1(d).

Z By cD
oe Tucker lines

Counsel for Amici Curiae

Dated: December 4, 2020
